• rf

No:

-6140

In the
Supreme Court of the United States

ROGER JOSE ALMANZAR,
Petitioner,

^PrernicSDrtTus'
filed

ocr 1 3 2020
®£ofthecleRK

vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PETITION FOR WRIT OF CERTIORARI
Roger Almanzar
Reg. # 67686-054
FCI Cumberland
P.O. Box 1000
Cumberland, MD 21501

QUESTIONS PRESENTED FOR REVIEW
Did the First Circuit err in not granting a certificate of appealability on the merits
of the claims of ineffective assistance of counsel when it addressed the acceptance
of a plea offer.

n

PARTIES TO THE PROCEEDINGS
IN THE COURT BELOW
In addition to the parties named in the caption of the case, the following
individuals were parties to the case is the United States Court of Appeal for the
First Circuit and the United States District Court of Massachusetts.
None of the parties is a company, corporation, or subsidiary of any company or
corporation.

in

TABLE OF CONTENTS
Cover Page

1

Questions Presented for Review

11

Parties to the Proceedings In The Court Below

in

Table of Contents

IV

Table of Authorities

vi

Opinion Below

2

Statement of Jurisdiction

2

Constitutional Provisions, Treaties, Statutes and Rules Involved

2

Statement of the Case

5

A. Course of Proceedings in the Lower Courts

5

Statement of the Facts

5

Reasons for granting the writ

6

Did the First Circuit err in not granting a certificate of appealability on
the merits of the claims of ineffective assistance of counsel when it
addressed the acceptance of a plea offer................................................
7
Conclusion
Almanzar v. United States, 19-1218 (1st Cir. 2020)

A-l

United States v. Almanzar, 2019 U.S. Dist. LEXIS 14485 (D. Mass. Jan.
29, 2019)..................................................................................................

B-l

IV

TABLE OF AUTHORITIES
Cases
Barefoot v. Estelle, 463 U.S. 880 (1983)
Buck v. Davis, 137 S.Ct. 759 (2017)
Fuller v. Johnson, 114 F.3d 491, 495 (5th Cir. 1997)
Miller-El v. Cockrell, 537 U.S. 322 (2003)
Rosales v. Dretke, 133 F. App'x 135, 137 (5th Cir. 2005)
Slack v. McDaniel, 529 U.S. 473 (2000)

11, 12
8,9
9
8, 9, 10, 11
9
8, 11, 12

Sorto v. Davis, 672 F. App'x 342 (5th Cir. 2016)

8

Tennard v. Dretke, 542 U.S. 274 (2004)

8

Statutes
21 U.S.C. § 846

5,6

28 U.S.C. § 1254(1)

2,3

28 U.S.C. § 2253

3,4

28 U.S.C. § 2253(c)(1)(B)
28 U.S.C. § 2255

8
2,3,4

Rules
Fed. R. App. P. 22(b)(1)

8

Supreme Court Rule 10

7,8

Supreme Court Rule 10.1(a)

8

VI

No:

In the
Supreme Court of the United States

ROGER JOSE ALMANZAR,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Roger Jose Almanzar, the Petitioner herein, respectfully prays that a Writ of
Certiorari is issued to review the judgment of the United States Court of Appeals
for the First Circuit, entered in the above-entitled cause.

OPINION BELOW
The opinion of the Court of Appeals for the Fifth Circuit, whose judgment is
herein sought to be reviewed, is an unpublished opinion Almanzar v. United States,
19-1218 (1st Cir. 2020) entered on July 17, 2020 and is reprinted as Appendix A to
this Petition.
The opinion of the United States District Court denying his Title 28 U.S.C. §
2255 whose judgment is herein sought to be reviewed, is an unpublished opinion
United States v. Almanzar, 2019 U.S. Dist. LEXIS 14485 (D. Mass. Jan. 29, 2019)
is reprinted as Appendix B to this Petition.
STATEMENT OF JURISDICTION
The First Circuit Court of Appeals opinion was entered on July 17, 2020.
The Jurisdiction of this Court is invoked pursuant to Title 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES AND RULES INVOLVED
The Fifth Amendment to the Constitution of the United States provides in
relevant part:
No person shall be held to answer for a capital, or otherwise, infamous
crime, unless on a presentment or indictment of a Grand Jury... nor shall
any person be subject for the same offense to be twice put in jeopardy of
life or limb, nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due
process of law.
Id. Fifth Amendment U.S. Constitution
2

The Sixth Amendment to the Constitution of the United States provides:
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and District wherein the
crime shall have been committed, which District shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation, to be confronted with the witness against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.
Id. Sixth Amendment U.S. Constitution
Title 28 U.S.C. § 2255 provides in pertinent part:
A prisoner in custody under sentence of a court established by Act of
Congress claiming the right to be released upon the ground that the
sentence was imposed in violation of the Constitution or laws of the
United States, or that the court was without jurisdiction to impose such
sentence, or that the sentence was in excess of the maximum authorized by
law, or is otherwise subject to collateral attack, may move the court which
imposed the sentence to vacate, set aside or correct the sentence.
%

Sfc S|« Sfc

Unless the motion and the files and records of the case conclusively show
that the prisoner is entitled to no relief, the court shall cause notice thereof
to be served upon the United States attorney, grant a prompt hearing
thereon, determine the issues and make findings of fact and conclusions of
law with respect thereto.
Id. Title 28 U.S.C. § 2255
Title 28 U.S.C. § 2253 provides in pertinent part:
(a) In a habeas corpus proceeding or a proceeding under section 2255 before a
district judge, the final order shall be subject to review, on appeal, by the court of
appeals for the circuit in which the proceeding is held.
(b) There shall be no right of appeal from a final order in a proceeding to test
the validity of a warrant to remove to another district or place for commitment or
3

trial a person charged with a criminal offense against the United States, or to test
the validity of such person’s detention pending removal proceedings.
(c)(1) Unless a circuit justice or judge issues a certificate of appealability, an
appeal may not be taken to the court of appeals from—
(A) the final order in a habeas corpus proceeding in which the detention
complained of arises out of process issued by a State court; or
(B) the final order in a proceeding under section 2255.
(2) A certificate of appealability may issue under paragraph (1) only if
the applicant has made a substantial showing of the denial of a
constitutional right.
(3) The certificate of appealability under paragraph (1) shall indicate
which specific issue or issues satisfy the showing required by
paragraph (2).
Id. Title 28 U.S.C. §2253.
STATEMENT OF THE CASE
On his Title 28 U.S.C. § 2255 challenge, Almanzar argued that his counsel was
ineffective during his bench trial and subsequent appeal.
STATEMENT OF THE FACTS
Beginning in approximately 2011, federal agents began investigating the drugtrafficking and money-laundering activities of Rahdames Pena and his associates
in and around Lynn, Massachusetts. During the course of the investigation, agents
identified New York-based Almanzar as one of Pena’s suppliers of kilogram
quantities of cocaine. Notably, agents used a cooperating witness, Hector Diaz,
who was a member of Pena’s organization, to make a controlled purchase of two
4

kilograms of cocaine from Almanzar on Pena’s behalf in November of 2012;
agents intercepted phone calls and text messages between Pena and Almanzar, and
between Pena and his associates, in early June of 2012 discussing Pena’s purchase
of seven kilograms of cocaine from Almanzar and a seized drug ledger belonging
to Pena contained notations indicating that Pena had purchased over 30 kilograms
of cocaine from Almanzar during 2011. Based on this and other evidence obtained
during the investigation, a federal grand jury in the District of Massachusetts
returned an indictment on November 29, 2012, charging Almanzar, Pena, and nine
others with conspiring to possess with intent to distribute and to distribute five
kilograms or more of cocaine, in violation of 21 U.S.C. §846 and §841(a)(l) and
(b)(l)(A)(ii) (Count One); Pena and others were separately charged with additional
drug-trafficking offenses. That same day, a magistrate judge (Dein, M.J.) issued
arrest warrants for Almanzar and his ten codefendants. On April 17, 2014, the
grand jury returned a superseding indictment. Like the original indictment, the
superseding indictment charged Almanzar in Count One with conspiring “to
possess with intent to distribute, and to distribute, cocaine,” in violation of 21
U.S.C. §846 and §841 (a)(1); and alleged that “the offense charged in Count One
involved five kilograms or more of.. . cocaine,” thereby triggering the enhanced
penalties set forth in §841 (b)(l)(A)(ii). The superseding indictment further alleged
that, “with respect to Count One, five kilograms or more of... cocaine ... are
5

attributable to, or were reasonably foreseeable by” Almanzar, thereby making the
enhanced penalties set forth in §841 (b)(l)(A)(ii) - - specifically, a 10-year
mandatory minimum sentence—applicable to Almanzar individually.
Almanzar and Pena were tried together in a six-day bench trial that began on
June 9, 2014. At the start of trial, Almanzar conceded that he was guilty of the
conspiracy charged in Count One because he did not dispute that he sold two
kilograms of cocaine to Diaz in Novem-ber 2012. However, Almanzar disclaimed
responsibility for any additional quantities of cocaine and stated that “the whole
focus of this trial is whether or not [the government] proved the five kilos” of
cocaine charged in the indictment that would require the court to impose a 10-year
mandatory minimum sentence. Almanzar recognized that, if the court were to
conclude beyond a reasonable doubt that he sold seven kilograms of cocaine to
Pena in June 2012, that would, “in effect, end [the] inquiry.” Id.
During trial, the government introduced evidence - testimony from agents and
cooperating witnesses, intercepted phone calls and text messages, and drug ledgers,
among other things - to prove that Almanzar sold two kilograms of cocaine to Diaz
in November 2012; that Pena’s drug ledger reflected multi-kilogram cocaine
transactions with Almanzar during 2011; and that Almanzar sold seven kilograms
of cocaine to Pena in June 2012. The government argued that the evidence proved
beyond a reasonable doubt that Almanzar had conspired to distribute and possess
6

with intent to distribute five or more kilograms of cocaine. In his defense,
Almanzar argued that the June 2012 transaction with Pena did not involve the sale
of seven kilograms of cocaine, but was instead a money-laundering transaction.
The court ultimately concluded beyond a reasonable doubt that Almanzar sold
Pena seven kilograms of cocaine in June 2012, finding Almanzar’s money
laundering defense not credible. The court also concluded that Almanzar was
guilty of the drug-trafficking conspiracy charged in Count One, that the conspiracy
involved five or more kilograms of cocaine, and that such quantity was attributable
to Almanzar individually. On October 9, 2014, the court sentenced Almanzar to
140 months in prison. Subsequent appeals and post conviction pleadings were
denied on the merits.
REASONS FOR GRANTING THE WRIT
THIS COURT SHOULD ISSUE A WRIT OF CERTIORARI BECAUSE
THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
HAS INTERPRETED A FEDERAL STATUTES IN A WAY THAT
CONFLICTS WITH APPLICABLE DECISIONS OF THIS COURT
Supreme Court Rule 10 provides in relevant part as follows:
Rule 10
CONSIDERATIONS GOVERNING REVIEW
ON WRIT OF CERTIORARI
(1) A review on writ of certiorari is not a matter of right, but of judicial
discretion. A petition for a writ of certiorari will be granted only when
there are special and important reasons therefore. The following, while
neither controlling nor fully measuring the Court’s discretion, indicate
the character of reasons that will be considered:
7

(a)When a United States court of appeals has rendered a
decision in conflict with the decision of another United States
Court of Appeals on the same matter; or has decided a federal
question in a way in conflict with a state court of last resort; or has
so far departed from the accepted and usual course of judicial
proceedings, or sanctioned such a departure by a lower court, as to
call for an exercise of this Court’s power of supervision.
(b)When a ... United States court of appeals has decided an
important question of federal law which has not been, but should
be, settled by this Court, or has decided a federal question in a way
that conflicts with applicable decision of this Court. ...Id.
Id. Supreme Court Rule 10.1(a), (c)
QUESTIONS PRESENTED
1. Did the First Circuit err in not granting a certificate of appealability on
t he merits of the claims of ineffective assistance of counsel when it
addressed the acceptance of a plea offer.
The instant application seeks a certificate of appealability pursuant to 28
U.S.C. § 2253(c)(1)(B) and Fed. R. App. P. 22(b)(1), because the correctness of
the District Courts’ disposition on the merits of the ineffectiveness claim is at least
“debatable” among jurists of reason. See, Buckv. Davis, 580 U.S. —, 137 S.Ct.
759, 773-75 (2017) (reiterating governing standard for issuance of COA); Tennard
v. Dretke, 542 U.S. 274, 282-83 (2004); Miller-El v. Cockrell, 537 U.S. 322, 335
38 (2003); Slack v. McDaniel, 529 U.S. 473,484 (2000) (quoting Barefoot v.
Estelle, 463 U.S. 880, 893 (1983)); see also Sorto v. Davis, 672 F. App'x 342, 346
(5th Cir. 2016) (defendant must demonstrate that "reasonable jurists could debate
8

whether (or, for that matter, agree that) the petition should have been resolved in a
different manner or that the issues presented were 'adequate to deserve
encouragement to proceed further.’”); see also Rosales v. Dretke, 133 F. App'x
135, 137 (5th Cir. 2005) (any doubt regarding whether to grant a COA is resolved
in favor of the petitioner, and the severity of the penalty may be considered in
making this determination); Fuller v. Johnson, 114 F.3d 491, 495 (5th Cir. 1997).
To obtain a COA, the showing of possible error need not be conclusive. Far
from it. As explained in Miller-El, a “claim can be debatable even though every
jurist of reason might agree, after the COA has been granted and the case has
received full consideration, that petitioner will not prevail” 537 U.S. at 338. In
short, § 2253(c) establishes a low threshold for granting a COA. Buck v. Davis,
137 S.Ct. at 773-75. “We reiterate what we have said before: A ‘court of appeals
should limit its examination [at the COA stage] to a threshold inquiry into the
underlying merit of [the] claims,’ and ask ‘only if the District Court’s decision was
debatable.’” Id. at 11A (bracketed insertions original), quoting Miller-El, 537 U.S.
at 327, 348. In this case, In the court’s Order of denial, the court concluded that
“all indications were that Almanzar would not accept a 120-month sentence, not
just by the account of his counsel, (Doc. 891-3 at 2),1 but by the scope of the bench
trial in which he did not dispute his guilt of the conspiracy charge, but contested

1 “Doc.” refers to the Docket Entry in the District Court.
9

the government’s contention that the quantity of cocaine attributable to him was
high enough to trigger the minimum mandatory sentence of ten years. (Doc. 895, p
4). This position is open to interpretation. Almanzar, contrary to his attorney’s
response, would have accepted a plea, even if at a mandatory minimum sentence.
(Doc. 876-1, p 3). In fact, during the sentencing hearing, Almanzar's counsel noted
the following:
MR. SHEKETOFF: ... The way the negotiations went in this case is we said
from the beginning we're willing to plead to the indictment, because the
indictment did not have a quantity in it The government superseded before
trial to put the quantity in, which meant that we couldn't plead to it anymore.
So it was always clear that we were willing to plead to the indictment as it
initially drafted, but that would not have had a minimum mandatory
associated with it I mean, given your sentencing decisions, the guideline
calculation, it wouldn't have mattered. I think I said this to you at the very
beginning of our trial, that in many ways, this trial might just be a total waste
of time, because, you know, whether you were required to give 10 years or not
required to give 10 years, you had the discretion, given the government's
position at sentencing, it was likely that you were going to be — that this might
be an irrelevancy.
Id. (Doc. 717. p. 23).
The sentencing transcripts establish that Almanzar was “willing to plead to the
indictment” which could have occurred prior to the superseding indictment being
issued. (Doc. 717. p. 23). Counsel’s affidavit that he was “informed that
[Almanzar] would not accept any bargains unless the quantity involved would not
expose him to the minimum mandatory sentence” is contradicted by the statement
made at sentencing. (Doc. 891-3, p. 32). Whether Almanzar was willing to “plead
10

‘

‘i

to the indictment” or “would not accept any bargains unless the quantity involved
would not expose him to the minimum mandatory sentence” are opposite of each
other. This is a classic case where a jurist of reason would agree that the matter
could have been resolved in a different manner. Widener v. Cowen, 2019 U.S.
Dist. LEXIS 12360, at *16 (D. Mass. Jan. 25, 2019) (A certificate of appealability
is appropriate when "reasonable jurists would find the district court's assessment of
the constitutional claim debatable or wrong." Miller-El v. Cockrell, 537 U.S. 322,
338, 123 S. Ct. 1029, 154 L. Ed. 2d 931 (2003).
Here, a jurist of reason could have debated whether counsel remembered what
he stated at the sentencing hearing versus what he alleged in his affidavit. As
stated in Slack v. McDaniel, 529 U.S. 473, 481, 146 L. Ed. 2d 542, 120 S. Ct. 1595
(2000) "where a district court has rejected the constitutional claims on the merits,
the showing required to satisfy § 2253(c) is straightforward: The petitioner must
demonstrate that reasonable jurists would find the district court's assessment of the
constitutional claims debatable or wrong." Id. 529 U.S., at 484. Almanzar does
not require a showing that the appeal will succeed. Miller-El v. Cockrell, 537 U.S.
322, 337, 123 S. Ct. 1029, 1039 (2003). All Almanzar requires a showing of
victory on appeal. The fact that he is requesting permission to appeal is enough to
show he has already lost. Barefoot v. Estelle, 463 U.S. 880, 103 S. Ct. 3383
(1983).
11

The appellate court should not have declined the application for a COA merely
because it believed Almanzar will not demonstrate an entitlement to relief. The
holding in Slack would mean very little if the appellate review were denied
because the prisoner did not convince a judge, or, for that matter, three judges, that
he or she would prevail. It is consistent with § 2253 that a COA will issue in some
instances where there is no certainty of ultimate relief. Id. Estelle at 893. All that
Almanzar had to establish was that there was "probable cause requires something
more than the absence of frivolity" or the existence of mere "good faith" on his.
Barefoot, at 893. The court does not require Almanzar to prove, before the
issuance of a COA, that some jurists would grant the petition for habeas corpus.
Indeed, a claim can be debatable even though every jurist of reason might agree
after the COA has been granted and the case has received full consideration, that
Almanzar will not prevail. As the court stated in Slack, "where a district court has
rejected the constitutional claims on the merits, the showing required to satisfy §
2253(c) is straightforward: The petitioner must demonstrate that reasonable jurists
would find the district court's assessment of the constitutional claims debatable or
wrong." Id. at 529 U.S., at 484. In this case, counsel’s statements during the
change of plea hearing are contradicted by his statements in the sworn affidavit. A
jurist of reason may find it debatable whether counsel advised Almanzar of the
possibility to plead guilty, prior to the indictment being superseded, thus avoiding
12

a mandatory minimum sentence. The statements are inconclusive, debatable and
warrant encouragement to proceed further. As such, the lower court’s decision
was in error, requiring this court’s intervention.
CONCLUSION
Based on the foregoing, this Court should grant this request for a Writ of
Certiorari and remand order the Court of Appeals for the First Circuit.
Done this

, day of October 2020.

Roger Almanzar
Reg. # 67686-054
FCI Cumberland
P.O. Box 1000
Cumberland, MD 21501

13

